      Department of Homeland Security



      Information Technology Management Letter for the 

     Federal Emergency Management Agency Component 

            of the FY 2011 DHS Financial Statement 

                            Audit 





OIG-12-70                                       A pril 2012
                                                                           Office of Inspector General

                                                                           U.S. Department of Homeland
                                                                           Security
                                                                           Washington, DC 20528




                                          April 5, 2012

                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports prepared as
part of our oversight responsibilities to promote economy, efficiency, and effectiveness within
the Department.

This report presents the information technology (IT) management letter for the Federal
Emergency Management Agency (FEMA) component of the FY 2011 DHS consolidated
financial statement audit as of September 30, 2011. It contains observations and
recommendations related to information technology internal control weaknesses that were
summarized in the Independent Auditors’ Report dated November 11, 2011, and represents the
separate restricted distribution report mentioned in that report. The independent accounting firm
KPMG LLP (KPMG) performed the audit procedures at the FEMA component in support of the
DHS FY 2011 consolidated financial statement audit and prepared this IT management letter.
KPMG is responsible for the attached IT management letter and the conclusions expressed in it.
We do not express opinions on DHS’ financial statements or internal control or conclusions on
compliance with laws and regulations.

The recommendations herein have been developed to the best knowledge available to our office,
and have been discussed in draft with those responsible for implementation. We trust that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                             Frank Deffer
                                             Assistant Inspector General
                                             Office of Information Technology Audits
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006

February 22, 2012

Inspector General
U.S. Department of Homeland Security

Chief Information Officer and
Chief Financial Officer
U.S. Federal Emergency Management Agency
We have audited the balance sheet of the U.S. Department of Homeland Security (DHS or
Department) as of September 30, 2011 and the related statement of custodial activity for the year
then ended (referred to herein as the “fiscal year (FY) 2011 financial statements”). The objective
of our audit was to express an opinion on the fair presentation of these financial statements. We
were also engaged to examine the Department’s internal control over financial reporting of the
balance sheet as of September 30, 2011, and statement of custodial activity for the year then ended,
based on the criteria established in Office of Management and Budget, Circular No. A-123,
Management’s Responsibility for Internal Control, Appendix A. In connection with our audit, we
also considered DHS’ compliance with certain provisions of applicable laws, regulations,
contracts, and grant agreements that could have a direct and material effect on the FY 2011
financial statements.
Our Independent Auditors’ Report issued on November 11, 2011, describes a limitation on the
scope of our audit that prevented us from performing all procedures necessary to express an
unqualified opinion on DHS’ FY 2011 financial statements and internal control over financial
reporting. In addition, the FY 2011 DHS Secretary’s Assurance Statement states that the
Department was unable to provide assurance that internal control over financial reporting was
operating effectively at September 30, 2011.
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent,
or detect and correct misstatements on a timely basis. A material weakness is a deficiency, or
combination of deficiencies, in internal control such that there is a reasonable possibility that a
material misstatement of the entity’s financial statements will not be prevented, or detected and
corrected on a timely basis. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control that is less severe than a material weakness, yet important enough to
merit attention by those charged with governance. In accordance with Government Auditing
Standards, our Independent Auditors’ Report, dated November 11, 2011, included internal control
deficiencies identified during our audit, that individually, or in aggregate, represented a material
weakness or a significant deficiency. This letter represents the separate limited distribution report
mentioned in that report.
During our audit engagement, we noted certain matters in the areas of access controls, configuration
management, security management, contingency planning, and segregation of duties with respect to
DHS’ financial systems general Information Technology (IT) controls which we believe contribute
to a DHS-level significant deficiency that is considered a material weakness in IT controls and
financial system functionality. We also noted that in some cases, financial system functionality is
inhibiting DHS’ ability to implement and maintain internal controls, notably IT applications
controls supporting financial data processing and reporting. These matters are described in the
General IT Control Findings and Recommendations section of this letter.


                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
Although not considered to be a material weakness, we also noted certain other items during our
audit engagement which we would like to bring to your attention. These matters are also described
in the General IT Control Findings and Recommendations section of this letter.
The material weakness and other comments described herein have been discussed with the
appropriate members of management, or communicated through a Notice of Finding and
Recommendation (NFR), and are intended For Official Use Only. We aim to use our knowledge of
DHS’ organization gained during our audit engagement to make comments and suggestions that we
hope will be useful to you. We have not considered internal control since the date of our
Independent Auditors’ Report.
The Table of Contents on the next page identifies each section of the letter. We have provided a
description of key DHS financial systems within the scope of the FY 2011 DHS financial statement
audit engagement in Appendix A; a description of each internal control finding in Appendix B; and
the current status of the prior year NFRs in Appendix C. Our comments related to financial
management and reporting internal controls (comments not related to IT) have been presented in a
separate letter to the Office of Inspector General and the DHS Chief Financial Officer.

This report is intended solely for the information and use of DHS management, DHS Office of
Inspector General (OIG), U.S. Office of Management and Budget (OMB), U.S. Government
Accountability Office (GAO), and the U.S. Congress, and is not intended to be and should not be
used by anyone other than these specified parties.

Very truly yours,
                              Department of Homeland Security

                          Federal Emergency Management Agency

                          Information Technology Management Letter
                                     September 30, 2011

              INFORMATION TECHNOLOGY MANAGEMENT LETTER

                                      TABLE OF CONTENTS

                                                                                                Page

Objective, Scope, and Approach                                                                   1

Summary of Findings and Recommendations                                                          3

General IT Control Findings and Recommendations                                                  5

       Configuration Management                                                                  5

       Security Management                                                                       6

             After – Hours Physical Security Testing                                             7

             Social Engineering Testing                                                          8

       Access Controls                                                                           8

       Segregation of Duties                                                                     9

       Contingency Planning                                                                      9

Application Controls                                                                            14



                                          APPENDICES

Appendix                                        Subject                                         Page

           Description of Key FEMA Financial Systems and IT Infrastructure within the Scope 

   A                                                                                             15
           of the FY 2011 DHS Financial Statement Audit

   B       FY 2011 Notices of IT Findings and Recommendations at the FEMA                        18

               •   Notice of Findings and Recommendations – Definition of Severity Ratings       19

           Status of Prior Year Notices of Findings and Recommendations and Comparison to 

   C                                                                                             25

           Current Year Notices of Findings and Recommendations at the FEMA

   D       Report Distribution                                                                   29





  Information Technology Management Letter for the Federal Emergency Management

            Agency Component of the FY 2011 DHS Financial Statement Audit

                              Department of Homeland Security

                          Federal Emergency Management Agency

                          Information Technology Management Letter
                                     September 30, 2011

                         OBJECTIVE, SCOPE, AND APPROACH

We have audited the U.S. Department of Homeland Security’s (DHS or Department) balance sheet
as of September 30, 2011, and the related statement of custodial activity for the year then ended.
We were also engaged to examine the Department’s internal control over financial reporting of the
balance sheet as of September 30, 2011 and the statement of custodial activity for the year then
ended. During our fiscal year (FY) 2011 financial statement audit, we performed an evaluation of
general information technology (IT) controls (GITC) at the Federal Emergency Management
Agency (FEMA). The Federal Information System Controls Audit Manual (FISCAM), issued by
the U.S. Government Accountability Office (GAO), formed the basis of our GITC evaluation
procedures. The scope of the GITC evaluation is further described in Appendix A.

FISCAM was designed to inform financial auditors about IT controls and related audit concerns to
assist them in planning their audit work and to integrate the work of auditors with other aspects of
the financial audit. FISCAM also provides guidance to IT auditors when considering the scope and
extent of review that generally should be performed when evaluating general controls and the IT
environment of a federal agency. FISCAM defines the following five control functions to be
essential to the effective operation of the GITC environment:

•	 Security Management (SM) – Controls that provide a framework and continuing cycle of
   activity for managing risk, developing security policies, assigning responsibilities, and
   monitoring the adequacy of computer-related security controls.
•	 Access Control (AC) – Controls that limit or detect access to computer resources (data,
   programs, equipment, and facilities) and protect against unauthorized modification, loss, and
   disclosure.
•	 Configuration Management (CM) – Controls that help to prevent unauthorized changes to
   information system resources (software programs and hardware configurations) and provide
   reasonable assurance that systems are configured and operating securely and as intended.
•	 Segregation of Duties (SD) – Controls that constitute policies, procedures, and an organizational
   structure to manage who can control key aspects of computer-related operations.
•	 Contingency Planning (CP) – Controls that involve procedures for continuing critical operations
   without interruption, or with prompt resumption, when unexpected events occur.

To complement our GITC audit procedures, we also performed technical security testing for key
network and system devices, as well as testing over certain key financial application controls in the
FEMA environment. The technical security testing was performed from within a select FEMA
facility and focused on production devices that directly support FEMA’s financial processing and
key general support systems. Limited social engineering and after-hours physical security testing
was also included in the scope of technical security testing.

In addition to testing FEMA’s general control environment, we performed application control tests
on a limited number of FEMA’s financial systems and applications, specifically those supporting
the National Flood Insurance Program (NFIP). The application control testing was performed to


  Information Technology Management Letter for the Federal Emergency Management

            Agency Component of the FY 2011 DHS Financial Statement Audit

                                       Page 1

                              Department of Homeland Security

                          Federal Emergency Management Agency

                          Information Technology Management Letter
                                     September 30, 2011

assess the controls that support the financial systems’ internal controls over the input, processing,
and output of financial data and transactions.

•	 Application Controls (APC) - Application controls are the structure, policies, and procedures
   that apply to separate, individual application systems, such as accounts payable, inventory, or
   payroll.




  Information Technology Management Letter for the Federal Emergency Management

            Agency Component of the FY 2011 DHS Financial Statement Audit

                                       Page 2

                              Department of Homeland Security

                          Federal Emergency Management Agency

                          Information Technology Management Letter
                                     September 30, 2011

               SUMMARY OF FINDINGS AND RECOMMENDATIONS

During FY 2011, FEMA took corrective action to address certain prior year IT control weaknesses.
For example, FEMA made improvements over implementing certain logical controls over FEMA
and NFIP information systems, as well as development and implementation of controls around
patch management and vulnerability management. Additionally, we noted improvement in the
areas of certain IT entity-level controls, including those related to incident response and handling,
contractor management, and IT investment life cycle management. However, during FY 2011, we
continued to identify IT general control weaknesses that could potentially impact FEMA’s financial
data. The most significant weaknesses from a financial statement audit perspective related to
controls over security management, access control, configuration management, and contingency
planning for the Integrated Financial Management Information System (IFMIS)-Merger, financial
applications within the previous National Emergency Management Information System
accreditation boundary (hereinafter referred to as “NEMIS”), Payment and Reporting System
(PARS), Traverse, Transaction Record Reporting and Processing (TRRP), and associated General
Support System (GSS) environments, as well as weaknesses over physical security and security
awareness.

Collectively, the IT control weaknesses limited FEMA’s ability to ensure that critical financial and
operational data were maintained in such a manner to ensure confidentiality, integrity, and
availability. In addition, these weaknesses negatively impacted the internal controls over FEMA
financial reporting and its operation, and we consider them to collectively contribute to a material
weakness at the DHS level under standards established by the American Institute of Certified Public
Accountants (AICPA). In addition, based upon the results of our test work, we noted that FEMA
did not fully comply with the requirements of the Federal Financial Management Improvement Act
of 1996 (FFMIA).

Of the 48 findings identified during our FY 2011 testing, 40 were repeat findings, either partially or
in whole from the prior year, and 8 were new IT findings. These findings represent weaknesses in
each of the five FISCAM key control areas.

The majority of findings resulted from the lack of properly designed, detailed, and consistent
guidance over financial system controls to enforce DHS Sensitive Systems Policy Directive 4300A,
Information Technology Security Program, requirements and National Institute of Standards and
Technology (NIST) guidance. Specifically, the findings stem from: 1) the lack of formal
designation of financial system security responsibilities, 2) inadequately designed and operating
access control policies and procedures relating to the management of access to financial
applications, databases, and support systems, and supervisor recertification of user access
privileges, 3) insufficient logging of system events and monitoring of audit logs, 4) inadequately
designed and operating configuration management policies and procedures, 5) patch, configuration,
and vulnerability management control deficiencies within the system, 6) financial systems that were
not properly certified and accredited and authorized to operate, and 7) the lack of adequately
documented or tested contingency plans. These weaknesses may increase the risk that the

  Information Technology Management Letter for the Federal Emergency Management

            Agency Component of the FY 2011 DHS Financial Statement Audit

                                       Page 3

                             Department of Homeland Security

                         Federal Emergency Management Agency

                         Information Technology Management Letter
                                    September 30, 2011

confidentiality, integrity, and availability of system controls and FEMA financial data could be
exploited; thereby compromising the integrity of FEMA financial data used by management and
reported in the DHS financial statements.

While the recommendations made by us should be considered by FEMA, it is the ultimate
responsibility of FEMA management to determine the most appropriate method(s) for addressing
the weaknesses identified based on their system capabilities and available resources.




  Information Technology Management Letter for the Federal Emergency Management

            Agency Component of the FY 2011 DHS Financial Statement Audit

                                       Page 4

                             Department of Homeland Security

                         Federal Emergency Management Agency

                         Information Technology Management Letter
                                    September 30, 2011

         GENERAL IT CONTROL FINDINGS AND RECOMMENDATIONS

Findings:

During the FY 2011 DHS financial statement audit, we identified the following IT and financial
system control deficiencies at FEMA that collectively contribute to an IT material weakness at the
Department level. Our findings focused on financial systems controls as testing over IT system
functionality could not be conducted.

Configuration Management

        •	 Password, security patch management, and configuration deficiencies were identified
           during the vulnerability assessment on hosts supporting IFMIS-Merger, NEMIS, and
           general support systems;
        •	 Formal procedures for conducting internal scans of servers supporting NEMIS did not
           define requirements or procedures to ensure that system owners are aware of, and
           appropriately execute, responsibilities associated with vulnerability management for the
           system components under their area of responsibility. Additionally, vulnerabilities
           identified on NEMIS system components were not consistently tracked or monitored
           via the Plan of Actions & Milestones (POA&M) process;
        •	 Formalized configuration management plans for NEMIS and IFMIS-Merger were not
           documented to ensure that changes were adequately and centrally controlled,
           documented, or managed throughout the lifecycle of the FEMA configuration
           management process;
        •	 No formalized change management procedures existed for the use of shared accounts
           for deploying changes to the NEMIS production environment or to ensure that the
           movement of production code for NEMIS is appropriately controlled or monitored.
           Additionally, evidence could not be provided that management had appropriately
           restricted and controlled access to the NEMIS production application, web, and
           database servers for the deployment of changes;
        •	 Configuration management policies and procedures did not include comprehensive
           requirements for the frequency, documentation, and performance of monitoring audits
           for configuration baselines for all relevant network devices such as firewalls, routers,
           and switches that support financial systems to ensure that configuration items (CIs)
           within the scope of financial systems are documented and monitored in accordance with
           FEMA policy. Additionally, configuration changes which were implemented over these
           devices were not consistently or adequately documented or authorized;
        •	 A formalized process for modifying IFMIS-Merger system security functions to ensure
           that appropriate privileges are created, documented, approved, and monitored did not
           exist;


  Information Technology Management Letter for the Federal Emergency Management

            Agency Component of the FY 2011 DHS Financial Statement Audit

                                       Page 5

                            Department of Homeland Security

                        Federal Emergency Management Agency

                        Information Technology Management Letter
                                   September 30, 2011

       •	 Formal procedures were not implemented to require monitoring of changes deployed to
          IFMIS-Merger program libraries to review and validate implemented changes.
          Furthermore, informal reviews of developer activities that were conducted did not
          provide enough information to ensure that the approved changes were implemented;
       •	 For a majority of the fiscal year, formal procedures for conducting internal scans of the
          NFIP Local Area Network (LAN) supporting Traverse did not incorporate all
          components of the system environment to ensure that scans were properly conducted
          and monitored by FEMA or NFIP contractor management. Additionally, a formal
          process did not exist for the remediation of vulnerabilities identified during internal
          scans to ensure that the vulnerabilities were tracked and monitored via the POA&M
          process;
       •	 The configuration management plans for Traverse and TRRP did not comprehensively
          provide guidance to address all configuration management control elements required by
          FEMA and DHS policy for standard and emergency changes;
       •	 TRRP changes were not approved prior to development and implementation into
          production;
       •	 Formalized processes were not properly or comprehensively documented and
          implemented to ensure that FEMA management within the Federal Insurance and
          Mitigation Administration (FIMA), Risk Insurance Division (RID), were adequately
          involved in configuration management activities over Traverse and TRRP;
       •	 Documentation supporting the logical components of the TRRP environment was not
          current or complete; and
       •	 For a majority of the fiscal year, documented change management procedures did not
          include requirements for approving, testing, and ensuring timely installation of
          operating system patches for all components of the NFIP LAN supporting Traverse.

Security Management

       •	 Policies and procedures requiring the completion and tracking of specialized training
          for FEMA employees and contractors identified as possessing significant information
          security responsibilities had not been fully implemented as required by DHS policy;
       •	 Certification and accreditation (C&A) activities for IFMIS-Merger and the NFIP IT
          environment were not completed in accordance with DHS and NIST requirements;
       •	 The FEMA Switch Network (FSN)-2 C&A package was not completed in compliance
          with DHS and NIST requirements and had not been updated to reflect the current
          operating environment. Additionally, the Authorization to Operate (ATO) expired in
          January 2010 and was not renewed. As a result, the FSN-2 GSS was operating without
          a valid ATO;



  Information Technology Management Letter for the Federal Emergency Management

            Agency Component of the FY 2011 DHS Financial Statement Audit

                                       Page 6

                               Department of Homeland Security

                           Federal Emergency Management Agency

                           Information Technology Management Letter
                                      September 30, 2011

        •	 Although the FSN-2 C&A package references various subsystems supporting and
           hosting IFMIS and NEMIS, FEMA management was unable to identify and confirm the
           FSN-2 subsystems (including regional LANs) that host all the production servers for
           NEMIS and IFMIS applications;
        •	 Documentation associated with the C&A package for NEMIS, including the system
           security plan (SSP) and ATO, expired and was not renewed;
        •	 IT security management responsibilities were not consistently or adequately assigned
           and performed over the FEMA POA&M process for FY 2010 IT audit findings, in
           accordance with DHS guidance; and
        •	 Suitability investigations for FEMA Federal employees and contractors accessing DHS
           IT systems were not appropriately conducted, and results were not properly
           documented or tracked.


After-Hours Physical Security Testing:

We performed after-hours physical security testing to identify risks related to non-technical aspects
of IT security. These non-technical IT security aspects included physical access to media and
equipment that housed financial data and information residing on a FEMA employee’s /
contractor’s desk which could be used by others to gain unauthorized access to systems housing
financial information. The specific results are listed below:

                                                      FEMA Locations Tested
                                            Washington                      FEMA            Total
                                             Design          Patriots       Finance       Exceptions
            Exceptions Noted                 Center           Plaza         Center         by Type
Passwords                                        3              6              13             22
For Official Use Only (FOUO)                     2              2               0              4
Keys                                             0              0               0              0
Personally Identifiable Information (PII)        6              2               2             10
Unlocked Laptops                                 3              1               1              5
Server Names/ IP Addresses                       1              1               0              2
Credit Cards                                     0              0               0              0
Classified Documents                             0              0               0              0
Unlocked Workstations                            1              0               0              1
Total by Location                                16             12             16             44




  Information Technology Management Letter for the Federal Emergency Management

            Agency Component of the FY 2011 DHS Financial Statement Audit

                                       Page 7

                               Department of Homeland Security

                           Federal Emergency Management Agency

                           Information Technology Management Letter
                                      September 30, 2011

Social Engineering Testing:

Social engineering is defined as the act of attempting to manipulate or deceive individuals into
taking action that is inconsistent with DHS policies, such as divulging sensitive information or
allowing/enabling computer system access. The term typically applies to trickery or deception for
the purpose of information gathering or gaining computer system access. During the social
engineering testing, while several personnel provided us with user IDs, no passwords were divulged
or compromised. The specific results of our testing are documented in the following table:

                                            Number of
                                                                Number of            Number of
                                          Personnel Who
  Testing         Total        Total                          Personnel Who        Personnel Who
                                          Provided Their
   Date           Called      Answered                        Provided Their       Provided Their
                                           User ID and
                                                               User ID Only        Password Only
                                            Password
06/02/2011         45            17              0                   10                   0
07/13/2011         35            8               0                    6                   0

Access Controls

        •	 Procedures for managing and periodically reviewing physical access to the facility
           hosting the NFIP LAN and Traverse were not formally documented or implemented
           and did not require documentation of periodic reviews for a majority of the fiscal year.
           Additionally, physical access privileges were not consistently or properly authorized;
        •	 IFMIS-Merger, NEMIS, Traverse, and PARS application and/or database accounts,
           network accounts, and remote user accounts were not periodically reviewed for
           appropriateness and/or were not fully and accurately recertified in accordance with
           FEMA and DHS policy, resulting in inappropriate authorizations and excessive user
           access privileges;
        •	 IFMIS-Merger and NEMIS application accounts, network accounts, and remote user
           accounts were not disabled or removed promptly upon personnel termination;
        •	 Initial and modified access granted to TRRP application and FEMA network and
           remote users was not properly documented and authorized;
        •	 Documented procedures for auditing NEMIS, IFMIS-Merger, and PARS databases
           were not comprehensive and did not meet DHS requirements. Additionally, for these
           financial systems, the NFIP LAN, Traverse, and TRRP, logging of operating system,
           application, and/or database events required to be recorded were not enabled for some
           or all of the events, audit logs were not appropriately reviewed and/or were reviewed by
           those with conflicting roles, and evidence of audit log reviews was not retained;
        •	 The Standard Operating Procedure (SOP) for monitoring sensitive access to NEMIS
           operating system software was not implemented and did not include all operating

  Information Technology Management Letter for the Federal Emergency Management

            Agency Component of the FY 2011 DHS Financial Statement Audit

                                       Page 8

                             Department of Homeland Security

                         Federal Emergency Management Agency

                         Information Technology Management Letter
                                    September 30, 2011

            system servers that were within the scope of the previous NEMIS accreditation
            boundary. Additionally, no application or tool was in place to support the audit logging
            function on the NEMIS servers;
        •	 Strong password requirements were not enforced on the NEMIS databases, the NFIP
           LAN, or Traverse;
        •	 FEMA’s process for authorizing and managing remote virtual private network (VPN)
           access to external state emergency management agencies and FEMA contractors did
           not comply with DHS and FEMA requirements. Specifically, existing documentation
           did not define the requirements for administering the site survey process with external
           organizations seeking VPN access or identify FEMA roles and responsibilities for
           managing VPN access granted to external individuals using non-DHS equipment to
           access the FEMA network;
        •	 Two-factor authentication was not used for VPN access, as required by DHS policy;
        •	 System administrator root access to IFMIS-Merger was not properly restricted, logged,
           and monitored; and
        •	 Emergency and temporary access to the IFMIS-Merger databases was not properly
           authorized.

Segregation of Duties – we identified segregation of duties weaknesses associated with other
FISCAM areas. Specifically, weaknesses in those areas pertain to access controls over audit log
reviews and configuration management controls for migrating code into production. See those
respective sections for additional information.

Contingency Planning

        •	 Documented procedures that outline processes for performing backups of NEMIS
           production databases and for rotating and physically securing backup tapes off-site had
           not been formally defined;
        •	 NEMIS backup tapes were not regularly tested in accordance with FEMA and DHS
           policy;
        •	 An alternate processing site for NEMIS was not established and implemented.
           Additionally, an exception to DHS policy for the lack of an established alternate
           processing site, as required for systems such as NEMIS that are categorized as “high
           impact” for availability, had not been requested by FEMA (this weakness is enhanced
           due to the control deficiencies noted above associated with performance and testing of
           NEMIS data backups);
        •	 The most recent NEMIS contingency plan had expired and had not been revised or
           approved by FEMA management. Additionally, full scale testing of the NEMIS
           contingency plan was not conducted;


  Information Technology Management Letter for the Federal Emergency Management

            Agency Component of the FY 2011 DHS Financial Statement Audit

                                       Page 9

                            Department of Homeland Security

                        Federal Emergency Management Agency

                        Information Technology Management Letter
                                   September 30, 2011

       •	 For a majority of the fiscal year, the existing NFIP LAN and Traverse contingency plan
          was not updated or tested in compliance with DHS and NIST requirements; and
       •	 The FIMA RID Continuity of Operations Plan (COOP), including Traverse and TRRP,
          was not formally documented or approved until June 2011.

Recommendations:

We recommend that the FEMA Chief Information Officer (CIO) and Chief Financial Officer
(CFO), in coordination with the DHS OCFO and the DHS OCIO, make the following
improvements to FEMA’s financial management systems and associated information technology
security program.

For Configuration Management

       •	 Implement the specific vendor-recommended corrective actions detailed in the Notice
          of Finding and Recommendation (NFR) that was issued for deficiencies identified
          during our vulnerability assessment;
       •	 Develop, finalize, and ensure that formal procedures are understood and implemented
          by system owners for all NEMIS system components under their area of responsibility
          for: conducting periodic internal vulnerability scans of all components of the system
          and assessing, reporting, tracking, and monitoring correction of vulnerabilities
          identified during internal scans;
       •	 Develop and implement formal configuration management plans for NEMIS and
          IFMIS-Merger to control emergency and non-emergency changes to financial systems
          application software, and ensure consistent adherence with requirements for approving,
          testing, documenting, properly controlling and tracking changes, and retaining related
          documentation;
       •	 Document and implement a formalized process and procedures for deploying NEMIS
          changes to ensure that access to the NEMIS production application, web, and database
          servers, including the use of shared accounts for movement of production code for the
          NEMIS production environment, is appropriately controlled and monitored;
       •	 Revise and fully implement configuration management policies and procedures over
          documenting and maintaining current baseline configurations for network devices
          supporting financial applications, including IFMIS-Merger, to ensure DHS and FEMA
          requirements are adequately addressed, configuration baselines are comprehensively
          documented, and configuration changes to network devices are consistently
          documented and authorized by FEMA. Additionally, policies and procedures should
          include guidance over requirements such as roles and responsibilities, documentation of
          baselines, periodic review and auditing, and approval of baseline changes for network
          devices;


  Information Technology Management Letter for the Federal Emergency Management

            Agency Component of the FY 2011 DHS Financial Statement Audit

                                      Page 10

                             Department of Homeland Security

                         Federal Emergency Management Agency

                         Information Technology Management Letter
                                    September 30, 2011

       •	 Develop and implement formal procedures for conducting periodic reviews of changes
          deployed to IFMIS-Merger program libraries to verify that only authorized changes are
          implemented into production and for retaining evidence of reviews conducted on file;
       •	 Update the current versions of Traverse and TRRP configuration management plans
          and procedures to comprehensively address DHS and FEMA requirements; procedures
          should fully incorporate FIMA RID management in required configuration
          management activities and establish a process for conducting, validating, documenting,
          and approving tests of configuration changes prior to implementation as well as
          conducting post-deployment verification activities. Additionally, ensure the consistent
          implementation of configuration management procedures for all changes to Traverse
          and TRRP;
       •	 Update TRRP system documentation to fully reflect all current system components,
          including logical datasets associated with the production and test environments; and
       •	 Fully implement comprehensive patch management policies and procedures to ensure
          that required operating system patches for all components of the NFIP LAN supporting
          Traverse are authorized, tested, and implemented.

For Security Management

       •	 Fully implement policies and procedures requiring initial and periodic specialized
          training for individuals with significant information security responsibilities to ensure
          that training requirements for all individuals possessing specific roles and positions
          associated with significant information security responsibilities are tracked;
       •	 Document or update all required C&A artifacts for NEMIS, IFMIS-Merger, Traverse,
          TRRP, the NFIP LAN, and FSN-2 in accordance with DHS policy and NIST guidance.
          Additionally, ensure that C&A artifacts, including the risk assessment or the results of
          the required risk assessment activities, the Security Testing and Evaluation (ST&E),
          and the Security Assessment Report (SAR) are conducted and documented over all
          components of the systems in accordance with established DHS baseline controls
          according to the security categorization of the system;
       •	 Establish and document a formalized process to provide IT security management
          oversight to ensure that adequate periodic review and assessment of security controls
          are performed and corrective actions are appropriately assigned and implemented over
          identified security weaknesses through the POA&M process;
       •	 Further refine processes to ensure that background investigations for all types of
          Federal employees and contractors are consistently performed and centrally tracked in
          accordance with DHS policy;
       •	 Review the effectiveness of existing security awareness programs designed to protect
          “need-to-know” information, including IT system access credentials, electronic and


  Information Technology Management Letter for the Federal Emergency Management

            Agency Component of the FY 2011 DHS Financial Statement Audit

                                      Page 11

                            Department of Homeland Security

                        Federal Emergency Management Agency

                        Information Technology Management Letter
                                   September 30, 2011

           physical data, PII, and FOUO agency information, and ensure that individuals are
           adequately instructed and reminded of their roles in the protection of sensitive system
           information from unauthorized individuals through formal, periodic communications
           and/or security awareness training.

For Access Controls

       •	 Fully establish and/or implement user account management recertification processes
          and require completion of periodic reviews of all user accounts for appropriate access
          and documentation of current user profiles for IFMIS-Merger, NEMIS, Traverse, and
          PARS; the FEMA network and remote user accounts; and physical access to the facility
          hosting the computer room supporting the NFIP LAN and the Traverse application.
          The processes should include revocation of accounts or access privileges that cannot be
          verified during recertification processes;
       •	 Update, as necessary, and consistently implement procedures and processes to ensure
          that all system accounts, including remote access accounts, of terminated employees
          and contractors are immediately removed/disabled upon their departure;
       •	 Review and revise existing procedures to require documented authorization of new and
          modified user accounts by supervisors, program managers, and contracting officers’
          technical representatives in accordance with DHS requirements;
       •	 Revise and implement detailed procedures requiring the consistent and timely review of
          IFMIS-Merger, NEMIS, PARS, NFIP LAN, Traverse, and TRRP database, application,
          and operating system logs and the maintenance of documentation supporting such
          reviews in accordance with DHS requirements. These procedures should also
          incorporate segregation of duties principles;
       •	 Configure audit logs for financial databases and applications to ensure that auditable
          events, as required by DHS policy, are recorded and appropriately reviewed by
          personnel without conflicting duties, and sufficient evidence is retained;
       •	 Revise, implement, and ensure adherence to the SOP for monitoring sensitive access to
          NEMIS operating system software to ensure that the scope of the procedures includes
          all defined NEMIS servers, and deploy the appropriate tool(s) to support audit logging
          functions on the NEMIS servers, in accordance with FEMA and DHS policy;
       •	 Configure NEMIS databases and NFIP LAN and Traverse accounts to enforce strong
          password and authenticator control requirements, and ensure that individuals with
          system/database administration and security responsibilities are aware of and properly
          trained in DHS, FEMA, and Federal requirements;
       •	 Revise and implement policies and procedures for documenting, reviewing, and
          approving the security controls in place over non-DHS equipment connecting to the
          FEMA network via VPN access, and ensure that roles, responsibilities, and security
          requirements for authorizing and managing VPN access for external organizations

  Information Technology Management Letter for the Federal Emergency Management

            Agency Component of the FY 2011 DHS Financial Statement Audit

                                      Page 12

                            Department of Homeland Security

                        Federal Emergency Management Agency

                        Information Technology Management Letter
                                   September 30, 2011

           connecting to the FEMA network are defined and implemented in accordance with
           DHS and FEMA policy;
       •	 Implement two-factor authentication for all remote access to the FEMA network;
       •	 Develop and implement policies and procedures that document the process of adding,
          deleting, and modifying IFMIS-Merger security functions to ensure that the proper
          controls are in place for modifying user account privileges. Additionally, ensure that
          the use of function modification privileges is monitored;
       •	 Develop and implement procedures for monitoring IFMIS system administrator and
          highly-privileged account activities and restricting access to the root account, and
          ensure that reviews of system logs and records are properly conducted; and
       •	 Consistently implement a formal process for granting IFMIS-Merger emergency and
          temporary database access that includes segregation of duties considerations and
          appropriate approval from FEMA management, as required by DHS policy.

For Contingency Planning

       •	 Complete on-going efforts to establish and implement an alternate processing site for
          NEMIS;
       •	 Ensure that a formal process is established, documented, and implemented to fully
          backup all necessary components of the NEMIS databases, secure backup media off-
          site, and periodically test NEMIS backup media at a frequency that is in accordance
          with FEMA and DHS policy; and
       •	 Update the NEMIS contingency plan in accordance with DHS requirements for high
          impact availability systems, inclusive of accurate system architecture information;
          conduct documented annual tests of the plan; and as necessary, update the plan with
          lessons learned from testing.




  Information Technology Management Letter for the Federal Emergency Management

            Agency Component of the FY 2011 DHS Financial Statement Audit

                                      Page 13

                             Department of Homeland Security

                         Federal Emergency Management Agency

                         Information Technology Management Letter
                                    September 30, 2011

                                APPLICATION CONTROLS

We concluded that application controls over NEMIS, IFMIS-Merger, and PARS could not be relied
upon for purposes of our FY 2011 audit procedures because of the nature of the general IT control
deficiencies identified and discussed above. As a result, we did not test application controls for
these financial systems. However, we conducted certain application control testing over key
financial systems supporting NFIP. Based on the testwork conducted, we did not identify any
findings in the area of application controls related to NFIP during the FY 2011 DHS financial
statement audit.




  Information Technology Management Letter for the Federal Emergency Management

            Agency Component of the FY 2011 DHS Financial Statement Audit

                                      Page 14

                                                                    Appendix A

                      Department of Homeland Security

                  Federal Emergency Management Agency

                  Information Technology Management Letter

                             September 30, 2011




                               Appendix A


     Description of Key FEMA Financial Systems and IT 

Infrastructure within the Scope of the FY 2011 DHS Financial 

                       Statement Audit





Information Technology Management Letter for the Federal Emergency Management

          Agency Component of the FY 2011 DHS Financial Statement Audit

                                    Page 15

                                                                                       Appendix A
                              Department of Homeland Security
                          Federal Emergency Management Agency
                          Information Technology Management Letter
                                     September 30, 2011


Below is a description of significant Federal Emergency Management Agency (FEMA) financial
management systems and supporting information technology (IT) infrastructure included in the
scope of the Department of Homeland Security (DHS) fiscal year (FY) 2011 financial statement
audit.

Locations of Testing FEMA Headquarters in Washington, D.C.; the Mount Weather Emergency
Operations Center in Virginia; IT operations in Virginia; the National Flood Insurance Program
(NFIP) in Virginia; and the NFIP contractor location in Maryland.

Systems Subject to Audit:

Integrated Financial Management Information System – Merger (IFMIS-Merger)

IFMIS-Merger is the official accounting system of FEMA and maintains all financial data for
internal and external reporting. IFMIS-Merger is comprised of five subsystems: Funding, Cost
Posting, Disbursements, Accounts Receivable, and General Ledger. The application is a
Commercial Off-The Shelf (COTS) software package developed and maintained by Digital Systems
Group Incorporated (DSG). IFMIS-Merger interfaces with Payment and Reporting System (PARS),
ProTrac, Smartlink (Department of Health and Human Services), Treasury Information Executive
Repository (TIER) (Department of the Treasury), Secure Payment System (SPS) (Department of the
Treasury), Grants Management System (Department of Justice), National Emergency Management
Information System (NEMIS), U.S. Coast Guard Credit Card System, Credit Card Transaction
Management System (CCTMS), Fire Grants, eGrants, Enterprise Data Warehouse (EDW), and
Payroll (Department of Agriculture National Finance Center). IFMIS-Merger is located in Virginia.

Payment and Reporting System (PARS)

PARS is a standalone web-based application. The PARS database resides on the IFMIS-Merger
UNIX server and is incorporated within the Certification & Accreditation (C&A) boundary for that
system. Through its web interface, PARS collects Standard Form 425 information from grantees
and stores the information in its Oracle 9i database. Automated cron jobs are run daily to update and
interface grant and obligation information between PARS and IFMIS-Merger. All payments to
grantees are made through IFMIS-Merger. PARS interfaces with IFMIS-Merger and is located in
Virginia.

National Emergency Management Information System (NEMIS)

NEMIS is a FEMA-wide General Support System (GSS) integrating hardware, software,
telecommunications infrastructure, and Web-based and client-server services and applications.
NEMIS consists of many integrated subsystems distributed over hundreds of separate servers
accessed by thousands of client workstations.



  Information Technology Management Letter for the Federal Emergency Management

            Agency Component of the FY 2011 DHS Financial Statement Audit

                                      Page 16

                                                                                       Appendix A
                              Department of Homeland Security
                          Federal Emergency Management Agency
                          Information Technology Management Letter
                                     September 30, 2011

NEMIS is an integrated system to provide FEMA, the states, and other Federal agencies with
functionality and automation to perform disaster-related operations. The subsystems and
applications incorporated within NEMIS support all phases of emergency management and provide
financial related data to IFMIS-Merger via automated interfaces. NEMIS interfaces with IFMIS-
Merger, U.S. Coast Guard Credit Card System, and Small Business Administration. The production
environment for NEMIS is geographically distributed nationwide but is principally administered
and managed in Virginia.

Traverse

Traverse is the general ledger application currently used by the National Flood Insurance Program
(NFIP) Bureau and Statistical Agent to generate the NFIP financial statements. Traverse is a client-
server application that runs on the NFIP Local Area Network (LAN) Windows server environment
in Maryland. The Traverse client is installed on the desktop computers of the NFIP Bureau of
Financial Statistical Control group members. Traverse has no known system interfaces.

Transaction Recording and Reporting Processing (TRRP)

The TRRP application acts as a central repository of all data submitted by the Write Your Own
(WYO) companies and the Direct Servicing Agent (DSA) for the NFIP. TRRP also supports the
WYO program, primarily by ensuring the quality of financial data submitted by the WYO
companies and DSA to TRRP. TRRP is a mainframe-based application that runs on the NFIP
mainframe logical partition in Connecticut. TRRP has no known system interfaces.




  Information Technology Management Letter for the Federal Emergency Management

            Agency Component of the FY 2011 DHS Financial Statement Audit

                                      Page 17

                                                                    Appendix B

                      Department of Homeland Security

                  Federal Emergency Management Agency

                  Information Technology Management Letter

                             September 30, 2011




                               Appendix B


FY 2011 Notices of IT Findings and Recommendations at the 

                          FEMA





Information Technology Management Letter for the Federal Emergency Management

          Agency Component of the FY 2011 DHS Financial Statement Audit

                                    Page 18

                                                                                     Appendix B
                             Department of Homeland Security
                         Federal Emergency Management Agency
                         Information Technology Management Letter
                                    September 30, 2011

Notice of Findings and Recommendations (NFR) – Definition of Severity Ratings:

Each NFR listed in Appendix B is assigned a severity rating from 1 to 3 indicating the influence on
the Department of Homeland Security (DHS) Consolidated Independent Auditors’ Report.

      1 – Not substantial 

      2 – Less significant

      3 – More significant


The severity ratings indicate the degree to which the deficiency influenced the determination of
severity for consolidated reporting purposes.

These ratings are provided only to assist the Federal Emergency Management Agency (FEMA) in
prioritizing the development of its corrective action plans for remediation of the deficiency.




  Information Technology Management Letter for the Federal Emergency Management

            Agency Component of the FY 2011 DHS Financial Statement Audit

                                      Page 19

                                                                                                                            Appendix B
                                                     Department of Homeland Security
                                                 Federal Emergency Management Agency
                                                 Information Technology Management Letter
                                                            September 30, 2011

                                                                                                2011 Severity                  Repeat
FY 2011 NFR #                          NFR Title                         FISCAM Control Area       Rating       New Issue       Issue
FEMA-IT-11-01   Alternate Processing Site for the National Emergency
                Management Information System (NEMIS) Has Not            Contingency Planning        3                           X
                Been Established
FEMA-IT-11-02   Weaknesses Exist in the Certification & Accreditation
                (C&A) Package for the FEMA Switched Network (FSN)­        Security Management        3                           X
                2, which Includes the FEMA Local Area Network (LAN)
FEMA-IT-11-03   Weaknesses Exist over the Authorization to Operate
                                                                          Security Management        3                           X
                (ATO) and C&A Documentation for NEMIS
FEMA-IT-11-04   NEMIS Contingency Plan Does Not Comprehensively
                Address the Requirements of DHS Policy and Has Not       Contingency Planning        3                           X
                Been Adequately Tested
FEMA-IT-11-05   Formalized Training Requirements for Individuals with
                Significant Information Security Responsibilities Have
                                                                          Security Management        2                           X
                Not Been Fully Implemented and Role-Based Training is
                Not Tracked or Monitored
FEMA-IT-11-06   Documentation Supporting Integrated Financial
                                                                             Configuration
                Management Information System (IFMIS)-Merger User                                    2                           X
                                                                             Management
                Functions Does Not Exist
FEMA-IT-11-07   Oracle Databases Supporting Financial Applications
                within the Previous NEMIS Accreditation Boundary are        Access Controls          2                           X
                Not Configured to Enforce Password Requirements
FEMA-IT-11-08   Oracle Databases Supporting Financial Applications
                within the Previous NEMIS Accreditation Boundary Do         Access Controls          3                           X
                Not Adequately Enforce Account Lockout Requirements




Information Technology Management Letter for the Federal Emergency Management Agency Component of the FY 2011 DHS Financial

                                                         Statement Audit 

                                                             Page 20

                                                                                                                           Appendix B
                                                     Department of Homeland Security
                                                 Federal Emergency Management Agency
                                                 Information Technology Management Letter
                                                            September 30, 2011

                                                                                               2011 Severity                  Repeat
FY 2011 NFR #                          NFR Title                        FISCAM Control Area       Rating       New Issue       Issue
FEMA-IT-11-09   Operating System Audit Logging on Servers Supporting
                Financial Applications within the Previous NEMIS           Access Controls          3                           X
                Accreditation Boundary is Not Adequate
FEMA-IT-11-10   Weaknesses Existed over Contingency Planning, Testing
                and Development of the Continuity of Operations Plan
                                                                        Contingency Planning        1                           X
                for the Transaction Record Reporting and Processing
                (TRRP) Application and Traverse
FEMA-IT-11-11   Recertification of NEMIS Access Control System
                                                                           Access Controls          1                           X
                Position Assignments is Incomplete
FEMA-IT-11-12   Audit Logging on Databases Supporting Financial
                Applications within the Previous NEMIS Accreditation       Access Controls          3                           X
                Boundary is Not Adequate
FEMA-IT-11-13   Weaknesses Exist over Vulnerability Management for
                                                                            Configuration
                Servers Supporting Financial Applications within the                                2                           X
                                                                            Management
                Previous NEMIS Accreditation Boundary
FEMA-IT-11-14   National Flood Insurance Program (NFIP) Physical
                Access Policies and Procedures were Not Appropriately      Access Controls          2             X
                Documented and Implemented
FEMA-IT-11-15   NFIP LAN and Traverse Account Security Configuration
                                                                           Access Controls          1             X
                Is Not in Compliance with DHS Policy
FEMA-IT-11-16   TRRP Logical Access was Not Appropriately Authorized       Access Controls          2             X
FEMA-IT-11-17   Weaknesses Exist over Configuration and Operating
                                                                           Access Controls          2             X
                Effectiveness of Traverse Audit Logs
FEMA-IT-11-18   Monitoring of Configuration Changes Deployed to the         Configuration
                                                                                                    3                           X
                IFMIS-Merger Production Environment are Inadequate          Management



Information Technology Management Letter for the Federal Emergency Management Agency Component of the FY 2011 DHS Financial

                                                         Statement Audit 

                                                             Page 21

                                                                                                                             Appendix B
                                                      Department of Homeland Security
                                                  Federal Emergency Management Agency
                                                  Information Technology Management Letter
                                                             September 30, 2011

                                                                                                 2011 Severity                  Repeat
FY 2011 NFR #                           NFR Title                          FISCAM Control Area      Rating       New Issue       Issue
FEMA-IT-11-19   Weaknesses Exist over Configuration Management
                                                                               Configuration
                Processes for Financial Applications within the Previous                              3                           X
                                                                               Management
                NEMIS Accreditation Boundary
FEMA-IT-11-20   Weaknesses Exist over IFMIS-Merger Configuration               Configuration
                                                                                                      3                           X
                Management Processes                                           Management
FEMA-IT-11-21   Weaknesses Exist over Recertification of Access to the
                                                                              Access Controls         3                           X
                IFMIS-Merger Application
FEMA-IT-11-22   Weaknesses Exist over TRRP Mainframe Audit Logs               Access Controls         2                           X
FEMA-IT-11-23   Emergency and Temporary Access to IFMIS-Merger is
                                                                              Access Controls         2                           X
                Not Properly Authorized
FEMA-IT-11-24   Weaknesses Exist over IFMIS-Merger Application and
                                                                              Access Controls         3                           X
                Database Audit Logging
FEMA-IT-11-25   IFMIS-Merger User Access was Not Managed in
                                                                              Access Controls         1                           X
                Accordance with Account Management Procedures
FEMA-IT-11-26   Payment and Reporting System (PARS) Database
                                                                              Access Controls         2                           X
                Security Controls Are Not Appropriately Established
FEMA-IT-11-27   NFIP LAN Audit Logging is Not Performed in
                                                                              Access Controls         1                           X
                Accordance with DHS and FEMA Requirements
FEMA-IT-11-28   Individual User Virtual Private Network (VPN) Access
                Accounts are Not Appropriately Authorized or                  Access Controls         3                           X
                Recertified
FEMA-IT-11-29   External Connections to the FEMA VPN Are Not
                                                                              Access Controls         3                           X
                Appropriately Authorized or Documented
FEMA-IT-11-30   IFMIS-Merger System Software Administrator Activity
                                                                              Access Controls         3                           X
                Is Not Appropriately Restricted or Monitored



Information Technology Management Letter for the Federal Emergency Management Agency Component of the FY 2011 DHS Financial

                                                         Statement Audit 

                                                             Page 22

                                                                                                                            Appendix B
                                                    Department of Homeland Security
                                                Federal Emergency Management Agency
                                                Information Technology Management Letter
                                                           September 30, 2011

                                                                                                2011 Severity                  Repeat
FY 2011 NFR #                         NFR Title                          FISCAM Control Area       Rating       New Issue       Issue
FEMA-IT-11-31   Weaknesses Exist over C&A Documentation for IFMIS-
                                                                          Security Management        3                           X
                Merger
FEMA-IT-11-32   Risk Assessment Activities over NFIP IT Systems were
                                                                          Security Management        2                           X
                Not Adequately Performed
FEMA-IT-11-33   Weaknesses Exist over Management and Technical
                                                                            Access Controls          1                           X
                Controls Associated with FEMA LAN Accounts
FEMA-IT-11-34   Employee Termination Process for Removing System
                                                                            Access Controls          3                           X
                Access Should Be More Proactive
FEMA-IT-11-35   Traverse Configuration Management Plan Weaknesses            Configuration
                                                                                                     2                           X
                                                                             Management
FEMA-IT-11-36   TRRP Configuration Management Plan Weaknesses                Configuration
                                                                                                     2                           X
                                                                             Management
FEMA-IT-11-37   Documentation Supporting TRRP Test Libraries Does            Configuration
                                                                                                     1             X
                Not Reflect Current Environment                              Management
FEMA-IT-11-38   Federal Insurance and Mitigation Administration (FIMA)
                                                                             Configuration
                Configuration Management Program has Not Been                                        2             X
                                                                             Management
                Developed
FEMA-IT-11-39   Weaknesses Exist over Background Investigations for
                                                                          Security Management        2                           X
                Federal Employees and Contractors
FEMA-IT-11-40   Weaknesses in the Management of Plans of Action &
                Milestones (POA&Ms) for Audit Findings over FEMA          Security Management        3                           X
                Financial Systems
FEMA-IT-11-41   Physical Security and Security Awareness Issues
                                                                            Access Controls          2                           X
                Associated with Enhanced Security Testing at FEMA
FEMA-IT-11-42   Traverse Accounts Were Not Appropriately Recertified        Access Controls          2             X



Information Technology Management Letter for the Federal Emergency Management Agency Component of the FY 2011 DHS Financial

                                                         Statement Audit 

                                                             Page 23

                                                                                                                            Appendix B
                                                     Department of Homeland Security
                                                 Federal Emergency Management Agency
                                                 Information Technology Management Letter
                                                            September 30, 2011

                                                                                                2011 Severity                  Repeat
FY 2011 NFR #                        NFR Title                           FISCAM Control Area       Rating       New Issue       Issue
FEMA-IT-11-43   Lack of Adequate Configuration Management over               Configuration
                                                                                                     2                           X
                Network Devices Supporting Financial Systems                 Management
FEMA-IT-11-44   Password, Patch, and Configuration Management
                                                                             Configuration
                Weaknesses Were Identified during the Vulnerability                                  3             X
                                                                             Management
                Assessment on IFMIS, NEMIS, and Key Support Servers
FEMA-IT-11-45   Vulnerability Assessment Program for the NFIP LAN            Configuration
                                                                                                     1                           X
                Supporting Traverse was Inadequate                           Management
FEMA-IT-11-46   Weaknesses Existed over the Configuration Patch
                                                                             Configuration
                Management Process for the NFIP LAN Supporting                                       1                           X
                                                                             Management
                Traverse
FEMA-IT-11-47   Weaknesses Exist over the Configuration and Testing of
                Backups for Servers Supporting Financial Applications    Contingency Planning        3                           X
                Within the Previous NEMIS Accreditation Boundary
FEMA-IT-11-48   Key Controls over Production Servers Supporting
                                                                             Configuration
                Applications Within the Former NEMIS Accreditation                                   3                           X
                                                                             Management
                Boundary Have Not Been Implemented




Information Technology Management Letter for the Federal Emergency Management Agency Component of the FY 2011 DHS Financial

                                                         Statement Audit 

                                                             Page 24

                                                                           Appendix C

                          Department of Homeland Security

                      Federal Emergency Management Agency

                      Information Technology Management Letter

                                 September 30, 2010




                                  Appendix C


Status of Prior Year Notices of Findings and Recommendations and 

       Comparison to Current Year Notices of Findings and 

                  Recommendations at the FEMA





Information Technology Management Letter for the Federal Emergency Management Agency

                 Component of the FY 2011 DHS Financial Statement Audit

                                        Page 25

                                                                                                  Appendix C
                                 Department of Homeland Security
                             Federal Emergency Management Agency
                             Information Technology Management Letter
                                        September 30, 2010

                                                                                             Disposition
   NFR #                                    Description                             Closed           Repeat
FEMA-IT-10-01   Recertification of National Emergency Management Information
                System (NEMIS) Access Control System Position Assignments is                    FEMA-IT-11-11
                Incomplete
FEMA-IT-10-02   Alternate Processing Site for NEMIS Has Not Been Established                    FEMA-IT-11-01
FEMA-IT-10-03   End-User Workstation Screensaver Configuration is Not Sufficient      X
FEMA-IT-10-04   Operating System Audit Logging on Servers Supporting Financial
                Applications within the Previous NEMIS Accreditation Boundary                   FEMA-IT-11-09
                is Not Adequate
FEMA-IT-10-05   Payment and Reporting System (PARS) Database Security
                                                                                                FEMA-IT-11-26
                Controls Are Not Appropriately Established
FEMA-IT-10-06   Oracle Databases Supporting Financial Applications within the
                Previous NEMIS Accreditation Boundary are Not Configured to                     FEMA-IT-11-07
                Enforce Password Requirements
FEMA-IT-10-07    Integrated Financial Management Information System (IFMIS)­
                Merged Oracle Database is Not Configured to Prevent the Reuse of      X
                Passwords
FEMA-IT-10-08   Oracle Databases Supporting Financial Applications within the
                Previous NEMIS Accreditation Boundary Do Not Adequately                         FEMA-IT-11-08
                Enforce Account Lockout Requirements
FEMA-IT-10-09   Audit Logging on Databases Supporting Financial Applications
                within the Previous NEMIS Accreditation Boundary is Not                         FEMA-IT-11-12
                Adequate
FEMA-IT-10-10   Inadequate FEMA Contractor Tracking Program                           X
FEMA-IT-10-11   Weaknesses Exist over IFMIS-Merger Application and Database
                                                                                                FEMA-IT-11-24
                Audit Logging
FEMA-IT-10-12   Grants & Training (G&T) IFMIS Access Authorizations Were Not
                                                                                      X
                Consistently Documented
FEMA-IT-10-13   G&T IFMIS Oracle Database Auditing Was Not Sufficient                 X
FEMA-IT-10-14   Weaknesses Exist over Recertification of Access to the IFMIS-
                                                                                                FEMA-IT-11-21
                Merger Application
FEMA-IT-10-15   Recertification of G&T IFMIS Application and Database Access
                                                                                      X
                Recertification Was Not Performed
FEMA-IT-10-16   G&T IFMIS Was Not Certified and Accredited                            X
FEMA-IT-10-17   Formalized Training Requirements for Individuals with Significant
                Information Security Responsibilities Have Not Been Fully
                                                                                                FEMA-IT-11-05
                Implemented and Role-Based Training is Not Tracked or
                Monitored
FEMA-IT-10-18   Weaknesses Exist over the Authorization to Operate (ATO) and
                                                                                                FEMA-IT-11-03
                Certification & Accreditation (C&A) Documentation for NEMIS
FEMA-IT-10-19   Lack of Adequate Configuration Management over Network
                                                                                                FEMA-IT-11-43
                Devices Supporting Financial Systems
FEMA-IT-10-20   NEMIS Contingency Plan Does Not Comprehensively Address the
                                                                                                FEMA-IT-11-04
                Requirements of DHS Policy and Has Not Been Adequately Tested
FEMA-IT-10-21   Employee Termination Process for Removing System Access
                                                                                                FEMA-IT-11-34
                Should Be More Proactive



  Information Technology Management Letter for the Federal Emergency Management Agency

                   Component of the FY 2011 DHS Financial Statement Audit

                                          Page 26

                                                                                                  Appendix C
                                 Department of Homeland Security
                             Federal Emergency Management Agency
                             Information Technology Management Letter
                                        September 30, 2010

                                                                                             Disposition
   NFR #                                    Description                             Closed           Repeat
FEMA-IT-10-22   Weaknesses Exist over Management and Technical Controls
                                                                                                FEMA-IT-11-33
                Associated with FEMA Local Area Network (LAN) Accounts
FEMA-IT-10-23   Weaknesses Existed over the Configuration Patch Management
                Process for the National Flood Insurance Program (NFIP) LAN                     FEMA-IT-11-46
                Supporting Traverse
FEMA-IT-10-24   Risk Assessment Activities over NFIP IT Systems were Not
                                                                                                FEMA-IT-11-32
                Adequately Performed
FEMA-IT-10-25   Individual User Virtual Private Network (VPN) Access Accounts
                                                                                                FEMA-IT-11-28
                are Not Appropriately Authorized or Recertified
FEMA-IT-10-26   IFMIS-Merger User Access was Not Managed in Accordance with
                                                                                                FEMA-IT-11-25
                Account Management Procedures
FEMA-IT-10-27   G&T IFMIS Oracle Database Security Controls Were Not
                                                                                      X
                Configured Properly
FEMA-IT-10-28   Weaknesses Exist in the C&A Package for the FEMA Switched
                                                                                                FEMA-IT-11-02
                Network (FSN)-2, which Includes the FEMA LAN
FEMA-IT-10-29   The PARS Has Not Been Certified and Accredited                        X
FEMA-IT-10-30   Emergency and Temporary Access to IFMIS-Merger is Not
                                                                                                FEMA-IT-11-23
                Properly Authorized
FEMA-IT-10-31   Weaknesses Exist in FEMA’s Incident Response Capability               X
FEMA-IT-10-32   G&T IFMIS and IFMIS-Merger Patch Management Weaknesses                X
FEMA-IT-10-33   Weaknesses Exist over Vulnerability Management for Servers
                Supporting Financial Applications within the Previous NEMIS                     FEMA-IT-11-13
                Accreditation Boundary
FEMA-IT-10-34   Weaknesses Exist over Vulnerability Management for G&T IFMIS
                                                                                      X
                and IFMIS-Merger
FEMA-IT-10-35   Weaknesses Exist over NEMIS Patch Management Guidance                 X
FEMA-IT-10-36   Weaknesses Exist over the Configuration and Testing of Backups
                for Servers Supporting Financial Applications Within the Previous               FEMA-IT-11-47
                NEMIS Accreditation Boundary
FEMA-IT-10-37   Security Awareness Issues Associated with Social Engineering
                                                                                      X
                Testing at FEMA
FEMA-IT-10-38   Physical Security and Security Awareness Issues Associated with
                                                                                                FEMA-IT-11-41
                Enhanced Security Testing at FEMA
FEMA-IT-10-39   Monitoring of Configuration Changes Deployed to the IFMIS-
                                                                                                FEMA-IT-11-18
                Merger Production Environment are Inadequate
FEMA-IT-10-40   System Programmers Had the Ability to Migrate Code into the
                                                                                      X
                G&T IFMIS Production Environment
FEMA-IT-10-41   Password, Patch, and Configuration Management Weaknesses
                Were Identified during the Vulnerability Assessment on IFMIS,         X
                NEMIS, and Key Support Servers
FEMA-IT-10-42   Weaknesses Exist over C&A Documentation for IFMIS-Merger                        FEMA-IT-11-31
FEMA-IT-10-43   Weaknesses Exist over the ATO and C&A Documentation for
                                                                                                FEMA-IT-11-03
                NEMIS
FEMA-IT-10-44   IFMIS-Merger System Software Administrator Activity Is Not
                                                                                                FEMA-IT-11-30
                Appropriately Restricted or Monitored



  Information Technology Management Letter for the Federal Emergency Management Agency

                   Component of the FY 2011 DHS Financial Statement Audit

                                          Page 27

                                                                                                 Appendix C
                                Department of Homeland Security
                            Federal Emergency Management Agency
                            Information Technology Management Letter
                                       September 30, 2010

                                                                                            Disposition
   NFR #                                   Description                             Closed           Repeat
FEMA-IT-10-45   Weaknesses Exist over Background Investigations for Federal
                                                                                               FEMA-IT-11-39
                Employees and Contractors
FEMA-IT-10-46   Key Controls over Production Servers Supporting Applications
                Within the Former NEMIS Accreditation Boundary Have Not Been                   FEMA-IT-11-48
                Implemented
FEMA-IT-10-47   FEMA Management Needs to Improve Planning, Management,
                and Communication Related to Financial Systems Development           X
                and Acquisition Projects
FEMA-IT-10-48   Weaknesses in the Management of Plans of Action & Milestones
                                                                                               FEMA-IT-11-40
                (POA&Ms) for Audit Findings over FEMA Financial Systems
FEMA-IT-10-49   Documentation Supporting IFMIS-Merger User Functions Does
                                                                                               FEMA-IT-11-06
                Not Exist
FEMA-IT-10-50   External Connections to the FEMA VPN Are Not Appropriately
                                                                                               FEMA-IT-11-29
                Authorized or Documented
FEMA-IT-10-51   NEMIS Access Restrictions to Program Directories within the Test
                                                                                     X
                and Development Laboratory (TDL) Needs Improvement
FEMA-IT-10-52   Vulnerability Assessment Program for the NFIP LAN Supporting
                                                                                               FEMA-IT-11-45
                Traverse was Inadequate
FEMA-IT-10-53   Transaction Record Reporting and Processing (TRRP) Mainframe
                                                                                     X
                Access Accounts Are Not Periodically Reviewed
FEMA-IT-10-54   Inadequate Implementation of DHS Systems Engineering Life
                                                                                     X
                Cycle (SELC) Requirements for the IFMIS-Merger Project
FEMA-IT-10-55   NFIP LAN Audit Logging is Not Performed in Accordance with
                                                                                               FEMA-IT-11-27
                DHS and FEMA Requirements
FEMA-IT-10-56   Weaknesses Exist over TRRP Mainframe Audit Logs                                FEMA-IT-11-22
FEMA-IT-10-57   Lack of Formal Processes for Managing Remote Access to the
                                                                                     X
                LAN Supporting the TRRP Mainframe
FEMA-IT-10-58   Traverse Configuration Management Plan Weaknesses                              FEMA-IT-11-35
FEMA-IT-10-59   TRRP Configuration Management Plan Weaknesses                                  FEMA-IT-11-36
FEMA-IT-10-60   Weaknesses Exist over the Implementation of Traverse System
                                                                                     X
                Changes
FEMA-IT-10-61   Weaknesses Existed over Contingency Planning, Testing and
                Development of the Continuity of Operations Plan (COOP) for                    FEMA-IT-11-10
                TRRP and Traverse
FEMA-IT-10-62   Weaknesses Exist over Configuration Management Processes for
                Financial Applications within the previous NEMIS Accreditation                 FEMA-IT-11-19
                Boundary
FEMA-IT-10-63   Weaknesses Exist over IFMIS-Merger Configuration Management
                                                                                               FEMA-IT-11-20
                Processes




  Information Technology Management Letter for the Federal Emergency Management Agency

                   Component of the FY 2011 DHS Financial Statement Audit

                                          Page 28

                                                                             Appendix D

                          Department of Homeland Security

                      Federal Emergency Management Agency

                      Information Technology Management Letter

                                 September 30, 2011



                 Report Distribution

                 Department of Homeland Security

                 Secretary
                 Deputy Secretary
                 General Counsel
                 Chief of Staff
                 Deputy Chief of Staff
                 Executive Secretariat
                 Under Secretary, Management
                 Administrator, FEMA
                 DHS Chief Information Officer
                 DHS Chief Financial Officer
                 Chief Financial Officer, FEMA
                 Chief Information Officer, FEMA
                 Chief Information Security Officer
                 Assistant Secretary for Policy
                 Assistant Secretary for Public Affairs
                 Assistant Secretary for Legislative Affairs
                 DHS GAO OIG Audit Liaison
                 Chief Information Officer, Audit Liaison
                 FEMA Audit Liaison

                 Office of Management and Budget

                 Chief, Homeland Security Branch
                 DHS OIG Budget Examiner

                 Congress

                 Congressional Oversight and Appropriations Committees, as
                 appropriate




Information Technology Management Letter for the Federal Emergency Management Agency

                 Component of the FY 2011 DHS Financial Statement Audit

                                        Page 29

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
